FDIC Office of Inspector General Press Release: Former Destin Builder Sentenced to 75 Months in Prison for Fraud and Theft of his Ex-Wife's Identity
United States Attorney's Office
Northern District of Florida
FOR IMMEDIATE RELEASE
January 14, 2014
Former Destin Builder Sentenced to 75 Months in Prison for Fraud and Theft of his Ex-Wife's Identity
PENSACOLA, FLORIDA â Pamela C. Marsh, United States Attorney for the Northern District of Florida, announced today that Lawrence Allen Wright, 46, of Niceville, Florida, was sentenced by Senior Federal District Court Judge Lacey A. Collier to 75 months in prison and ordered to pay over $3.7 million dollars in restitution.
Wright's sentence is a result of his guilty plea last October to a seven-count Information charging: one count of conspiracy to commit bank fraud, one count of conspiracy to commit money laundering, two counts of bank fraud, one count of mail fraud, one count of aggravated identity theft, and one count of making a false statement to federally insured financial institution.
In pleading guilty, Wright admitted to conspiring with other individuals to commit bank fraud and money laundering.  As a part of that scheme, Wright solicited individuals to act as straw buyers to purchase unimproved lots located in Walton County, using loans from Countrywide, so Wright could build homes on the lots.  While soliciting the straw buyers, Wright promised to make payments on the fraudulent loans and pay the earnest money deposit and closing costs for the straw buyers.  Wright told the straw buyers that he would be able to sell the properties for a profit after he built homes on them and that he would then share a portion of the proceeds with the straw buyers.
In addition to the conspiracy charges, Wright pled guilty to defrauding Regions Bank, Beach Community Bank, and GulfSouth Private Bank.  Three of the counts concerned Wright causing another individual to sign his ex-wife's name on legal documents without his ex-wife's knowledge or permission.  The legal documents included mortgage loan documents, promissory notes, and tax returns.
This case was investigated by IRS-CI, Federal Deposit Insurance Corporation-Office of Inspector General, U.S. Treasury, Office of the Special Inspector General for the Troubled Asset Relief Program, and the Okaloosa County Sheriff's Office as part of the Northwest Florida Financial Crimes Task Force.
This case was prosecuted by Assistant U.S. Attorney Tiffany H. Eggers.
# # #